Department of Homeland Security
   Ofﬁce of Inspector General



     DHS Efforts To Address Lessons Learned 

    in the Aftermath of Top Officials Exercises 





OIG-09-53                                   April 2009
                                                                Office of Inspector General

                                                                U.S. Department of Homeland Security
                                                                Washington, DC 20528




                                         April 10, 2009

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report addresses the strengths and weaknesses of DHS’ process to determine, formulate, and
address lessons learned and corrective needs identified during the Top Officials full-scale
exercise series. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, quantitative analysis, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust this report
will result in more effective, efficient, and economical operations. We express our appreciation
to all who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations


Executive Summary .........................................................................................................................1


Background ......................................................................................................................................2


Results of Review ............................................................................................................................6


     TOPOFF Exercises Did Not Include a Requirement 

     for Corrective Action Planning Prior to 2007............................................................................6 


     Corrective Action Program Has Not Been Fully Implemented ................................................7 

     Recommendations......................................................................................................................8

     Management Comments and OIG Analysis ..............................................................................9 


     Recurring Themes Identified in Previous Exercises and 

     Real-World Events Have Not Been Resolved ...........................................................................9 

     Recommendations....................................................................................................................10

     Management Comments and OIG Analysis ............................................................................11 


     Participation and Support in TOPOFF Planning and

     Implementation Need To Be Increased....................................................................................11 

     Recommendations....................................................................................................................13

     Management Comments and OIG Analysis ............................................................................14 


     Evaluator Selection and Training Need Improvements ...........................................................14 

     Recommendations....................................................................................................................15

     Management Comments and OIG Analysis ............................................................................16 


     Dissemination of TOPOFF AARs, Lessons Learned, and Best Practices .............................16 

     Recommendations....................................................................................................................18

     Management Comments and OIG Analysis ............................................................................18 


Appendixes
     Appendix A:          Purpose, Scope, and Methodology....................................................................19 

     Appendix B:          Management Response to the Draft Report ......................................................20 

     Appendix C:          The Corrective Action Program Process ...........................................................22 

     Appendix D:          Major Contributors to This Report....................................................................23 

     Appendix E:          Report Distribution ............................................................................................24 

Table of Contents/Abbreviations


Abbreviations
  AAR           after-action report
  CAP           Corrective Action Program
  DHS           Department of Homeland Security
  ESC           Executive Steering Committee
  FEMA          Federal Emergency Management Agency
  FOUO          For Official Use Only
  HSAS          Homeland Security Advisory System
  HSEEP         Homeland Security Exercise and Evaluation Program
  HSC           Homeland Security Council
  HSPD          Homeland Security Presidential Directive
  LLIS          Lessons Learned Information Sharing
  NED           National Exercise Division
  NEP           National Exercise Program
  NIMS          National Incident Management System
  NRP           National Response Plan
  Sub-IPC       Sub-Interagency Policy Committee
  TOPOFF        Top Officials
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Top Officials exercises test how key government officials respond to
                   simulated terrorist attacks. The exercises are intended to strengthen the
                   Nation’s capacity to prepare for, prevent, respond to, and recover from
                   large-scale terrorist acts. Our review examined the Department of
                   Homeland Security’s process to determine, formulate, and address lessons
                   learned and corrective needs identified during Top Officials exercises.

                   Since the first Top Officials exercises in 2000, neither a process for
                   tracking weaknesses and how those weaknesses were resolved, nor a
                   method for identifying and analyzing trends in corrective actions or
                   significant lessons learned has been established. As a result, federal, state,
                   local, and territorial agencies were unclear regarding the implementation
                   of suggested improvements following preparedness exercises.

                   In 2007, the Federal Emergency Management Agency instituted a federal
                   interagency corrective action program to address these problems. This
                   program established an interagency process for corrective action
                   implementation and validation after Top Officials exercises. However, the
                   corrective action process has not been fully implemented. The Federal
                   Emergency Management Agency also established a National Exercise
                   Program and standardized the terrorism exercise process. However, the
                   Department of Homeland Security has not secured adequate participation
                   and support from other federal departments and agencies; state, territorial,
                   and local entities; or the private sector in planning, implementing, and
                   evaluating exercises or in the corrective action processes. In addition,
                   after-action reports, best practices, and lessons learned from Top Officials
                   exercises have not been disseminated to a broad national audience.

                   We are recommending that the Department of Homeland Security seek
                   assistance from high-level agency and interagency committees, and amend
                   National Exercise Program guidance, as needed, to (1) fully implement the
                   corrective action program; (2) increase the level of participation by top
                   officials in all phases of the exercise; and (3) disseminate after-action
                   reports, best practices, and lessons learned to a broad national audience.
                   Federal Emergency Management Agency officials generally agreed with
                   our findings and will provide a detailed corrective action plan for
                   implementation in their 90-day letter.


          DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                               Page 1
Background
           History of the TOPOFF Exercise Series
                    In 1998, Congress provided funding for a national terrorism preparedness exercise
                    to assess the nation’s crisis and consequence management capability by applying
                    plans, policies, procedures, systems, and facilities through federal, state, and local
                    responses to terrorist threats and acts. Recognizing that top departmental and
                    agency officials rarely participated fully in such exercises, Congress required “the
                    participation of all key personnel who would participate in the consequence
                    management of such an actual terrorist event.”1 In May 2000, the Department of
                    Justice led the first in a series of national preparedness exercises called Top
                    Officials (TOPOFF) 2000.

                    TOPOFF 2000 simulated a pneumonic plague outbreak in Denver, Colorado, and
                    a mustard gas attack in Portsmouth, New Hampshire. More than 6,500 federal,
                    state, and local personnel, including top officials, responded to these simulated
                    attacks. Important objectives of the exercise were to examine the interfaces
                    between participating agencies and officials to identify seams, gaps, and
                    redundancies that affect decision-making, and to identify subsequent actions to
                    resolve consequence management issues.

                    To build on TOPOFF 2000, Congress mandated the formation of the TOPOFF
                    exercise series and the development of a continuous exercise cycle using
                    seminars, tabletop exercises, and command post exercises that culminate in a
                    biennial, national, full-scale TOPOFF exercise. Each exercise series would
                    involve a 2-year cycle of seminars, planning events, and exercises, and would
                    culminate in a full-scale assessment of the Nation’s capacity to prevent, prepare
                    for, respond to, and recover from large-scale terrorist attacks.

                    In May 2003, the Department of Justice and the Federal Emergency Management
                    Agency (FEMA) jointly sponsored TOPOFF 2, the second in the series of
                    exercises, using the scenarios of a radiological dispersal device in Seattle,
                    Washington, and pneumonic plague in Chicago, Illinois. TOPOFF 2 was
                    designed to identify vulnerabilities in the domestic incident management
                    capability by exercising against a series of integrated terrorist threats and acts.
                    The exercise engaged 8,500 responders and top officials from the United States
                    and Canada—the first international partner to participate.

                    Because TOPOFF 2 was in its final planning stages when DHS was established,
                    TOPOFF 3, the third exercise of the series, was the first exercise in which DHS
                    maintained full responsibility for planning, conducting, and after-action reporting.
                    Conducted in April 2005, TOPOFF 3 was designed to identify vulnerabilities in
                    the Nation’s domestic incident management capability. This exercise simulated

1
    Senate Report 105-235, July 2, 1998.

                   DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                                        Page 2
                pneumonic plague attacks in Union and Middlesex counties, New Jersey, and a
                mustard gas release in New London, Connecticut. TOPOFF 3 included more than
                10,000 participants, with international exercise play in the United Kingdom and
                Canada as part of a partnership intended to strengthen security, communication,
                and information sharing among the three nations.

                During TOPOFF 3, federal departments and agencies had their first opportunity to
                use the National Response Plan (NRP). The NRP was designed to link national-
                level, hazard-specific contingency plans that could be implemented independently
                during localized incidents or concurrently during incidents of national significance.2
                The foundation for the NRP was the National Incident Management System
                (NIMS), which provides a consistent national doctrinal framework for incident
                management at all jurisdictional levels, regardless of the cause, size, or complexity
                of the incident.

                During 2005, DHS developed a Universal Task List and Target Capabilities List
                to continue to define homeland security tasks, provide a framework to assess
                preparedness, and identify required resources. The Universal Task List describes
                incident management tasks to be performed, and provides a standardized
                reference for all levels of government and the private sector. The Target
                Capabilities List contains capabilities that various levels of government need to
                develop and maintain to prevent, respond to, and recover from a terrorist attack or
                major disaster. The Universal Task List and Target Capabilities List were still in
                the developmental stages during the TOPOFF 3 planning process and were
                subsequently integrated into the TOPOFF 4 exercise design, planning, evaluation,
                and improvement planning considerations.

                         Homeland Security Exercise and Evaluation Program Policy and
                         Guidance

                         The purpose of the Homeland Security Exercise and Evaluation Program
                         (HSEEP) is to provide common exercise policy and program guidance that
                         constitutes a national standard for exercises.3 Prior to 2007, HSEEP did not
                         fully address exercise planning, evaluation, after-action implementation
                         planning, or the corrective action process. In response to NRP and NIMS
                         goals to standardize preparedness exercise design, development, and
                         evaluation, DHS updated and expanded HSEEP guidelines for intra-agency
                         exercises in Volume III, Exercise Evaluation and Improvement Planning,
                         dated February 2007. Specifically, the updated 2007 HSEEP guidelines
                         required that the TOPOFF 4 exercise include:


2
  The NRP was in effect for the TOPOFF 3 and TOPOFF 4 exercises but was replaced by the National Response
Framework in January 2008.
3
  HSEEP policy and guidance is contained in five volumes: Volume I: Overview and Exercise Program
Management; Volume II Exercise Planning and Conduct; Volume III: Exercise Evaluation and Improvement
Planning; Volume IV: Sample Exercise Documents and Formats and Volume V: Prevention Exercises (Draft).

                DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                                     Page 3
              �	 Capabilities-based objectives in exercise design;
              �	 Data collected and analyzed according to HSEEP guidelines;
              �	 Exercise controller/evaluator training and briefings at exercise
                 venues;
              �	 An after-action conference to discuss policy observations 

                 identified during the exercise; 

              �	 A final after-action report (AAR) that includes an Improvement
                 Plan;
              �	 Adherence to HSEEP security guidance regarding AAR and 

                 Improvement Plan distribution; and 

              �	 Tracking and implementing of corrective actions through the 

                 Corrective Action Program (CAP). 


         Following Homeland Security Council (HSC) guidance and HSEEP
         guidelines to plan exercises according to capabilities-based objectives, the
         October 2007 TOPOFF 4 exercise employed a radiological dispersal
         device scenario that involved coordinated terrorist attacks in Portland,
         Oregon; Phoenix, Arizona; and the U.S territory of Guam.

         Formation of the National Exercise Program

         In the December 2003, Homeland Security Presidential Directive (HSPD)-8:
         National Preparedness, the President directed the Secretary of DHS “in
         coordination with other appropriate Federal departments and agencies, [to]
         establish a national program and a multi-year planning system to conduct
         homeland security preparedness-related exercises that reinforce training
         standards, provide for evaluation readiness, and support the national
         preparedness goal.” Under HSPD-8, federal agencies were directed to
         participate in a collaborative, interagency process to design preparedness
         exercises on a consensus basis, and create a master exercise calendar.

         The HSC, created in October 2001 by HSPD-1: Organization and
         Operation of the HSC, is located in the Executive Office of the President.
         The HSC reports on matters related to homeland security and combating
         terrorism, and consists of cabinet secretaries and White House senior
         officials whose responsibility includes a principal interest in homeland
         security policymaking. The HSC maintains a policy coordination and
         advisory role that functions across all levels of the federal government and
         answers directly to the President.

         In 2006, the HSC established the National Exercise Program (NEP), and
         approved its charter, implementation plan, and 5-year national exercise
         schedule in January 2007. The NEP requires that HSEEP methodology
         and guidelines be incorporated into TOPOFF exercise design, evaluation,
         and documentation activities. The NEP charter addresses White House
         recommendations contained in the Katrina Report, a comprehensive
DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                     Page 4
         assessment of the response and recovery efforts as a result of Hurricane
         Katrina, and provides a framework for federal interagency exercise
         coordination.

         FEMA’s National Exercise Division (NED) is the executive agent for the
         NEP. The NEP categorizes exercise activities into four tiers. These tiers
         reflect the relative priority for interagency participation, with Tier I as the
         most important and Tier IV being the least:

              �	 Tier I: White House–directed exercises with U.S. Government-
                 wide strategy, policy focus, and participation;
              �	 Tier II: U.S. Government-wide priorities, federal strategies and
                 policy focus, and significant exercise simulation;
              �	 Tier III: other federal exercises that have an operational, tactical, or
                 organizational focus, and include simulation; and,
              �	 Tier IV: state, territorial, local, tribal, or private sector exercises.

         The NEP chairs the Executive Steering Committee (ESC), which defines
         the exercise schedule, supports coordination of exercises, and ensures that
         exercises are conducted. The ESC coordinates departmental and agency
         roles and responsibilities, and reports to the HSC’s Exercise and
         Evaluation Sub-Interagency Policy Committee (Sub-IPC). The Sub-IPC
         recommends exercise priorities, goals, objectives, schedules, and
         corrective action issues to the HSC Deputies Committee, which is
         composed of deputy cabinet secretaries of the relevant federal agencies.
         The ESC comprises eight departments and agencies:

              �	 Department of Defense
                    o	 Office of the Secretary of Defense/Homeland Defense
                    o	 Joint Staff – J7
              �	 Department of Homeland Security
              �	 Department of Energy
              �	 Department of Health and Human Services
              �	 Department of Justice
                    o	 Federal Bureau of Investigation
              �	 Department of Transportation
              �	 Office of the Director of National Intelligence
              �	 Federal Bureau of Investigation

         The ESC may also contain up to two rotating members who serve 1-year
         terms. In addition to their program responsibilities, the NED and NEP are
         responsible for the following:

              �	 HSEEP, which develops policy and guidance on all aspects of
                 preparedness exercises;

DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                     Page 5
                        �	 The National Exercise Schedule, which encompasses federal, state,
                           territorial, local, tribal, or private sector Tier I through Tier IV
                           exercises;
                        �	 The CAP system, which provides an interdepartmental system to
                           develop, prioritize, and track corrective actions following exercises
                           and real-world events;
                        �	 The Lessons Learned Information Sharing (LLIS) System, a web-
                           based national network of lessons learned and best practices for the
                           emergency response and homeland security community;
                        �	 The Regional Exercise Support Program, which supports
                           regionally coordinated exercises through assistance in the design,
                           development, conduct, and evaluation of preparedness exercises;
                        �	 The Terrorism Prevention Exercise Program, which conducts
                           exercises and supports activities that increase awareness,
                           cooperation, and information sharing among homeland security
                           and law enforcement officials at all levels of government; and
                        �	 The Senior Official Exercise, which supports the design,
                           development, conduct, and evaluation of principal level and intra-
                           DHS exercises.


Results of Review
     TOPOFF Exercises Did Not Include a Requirement for Corrective
     Action Planning Prior to 2007
          Past TOPOFF exercises and actual disasters such as Hurricane Katrina have
          uncovered gaps in the Nation’s preparedness. Federal, state, territorial, and local
          response organizations have recognized the importance of promoting best
          practices and identifying areas for improvement to produce a more effective
          response to acts and threats, as well as natural disasters. However, a process to
          prioritize, track, and validate corrective actions taken to mitigate weaknesses
          identified in exercise planning, development, and execution was not established
          until 2007.

          Prior to 2007, HSEEP’s exercise planning, evaluation, after-action
          implementation planning, and a corrective action process were incomplete.
          During TOPOFF 2 in May 2003, attendees and exercise participants identified
          several lessons learned relating to exercise design and conduct. However,
          exercise evaluation and improvement planning was not performed, as these
          actions were not included as part of the initial HSEEP guidance.

          TOPOFF 3, in 2005, was the first exercise that DHS sponsored with full
          responsibilities for exercise planning, conduct, and after-action activities. The
          exercise results identified operational shortfalls in terrorism prevention, response,

          DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                               Page 6
     and recovery. The TOPOFF 3 after-action process followed 2003 HSEEP
     principles, which focused on determining why a particular event or response
     occurred, and provided participants with information that could be used to
     improve response and recovery efforts. However, improvement planning to
     address remedial needs and corrective action procedures was not a part of
     HSEEP. Therefore, the final AAR recommendations only informed participating
     departments and agencies of existing problems, and encouraged improvements in
     agency prevention, response, and recovery capabilities.

     In the absence of a process to identify and implement corrective actions, problem
     areas identified during and even prior to the TOPOFF 3 exercise recurred during the
     response to Hurricane Katrina in 2005, and again in the 2007 TOPOFF 4 exercise.


A Corrective Action Program Has Not Been Fully Implemented
     Previous preparedness exercises and real-world incidents did not result in the
     development of corrective action plans or the assignment of responsibility for
     corrective actions to resolve cross-cutting issues, because no department or
     agency had authority to direct the actions of another. Participating agencies
     developed internal corrective action plans, but without a coordinated interagency
     process, issues involving multiple federal entities remained unresolved.

     In February 2007, HSEEP updated the evaluation and improvement planning
     section to include (1) more details on improvement planning, and (2) the
     requirement for a corrective action planning system. In addition, the NEP
     requires the development of a corrective action process to ensure that lessons
     from exercises are either sustained or improved as appropriate.

     The CAP provides the basis for systematically developing, prioritizing, and
     tracking corrective actions following exercises, real-world events, and policy
     discussions. Established as part of the NEP Implementation Plan, the CAP
     represents an improvement toward interagency coordination and accountability
     for corrective action after TOPOFF and other exercises. It requires that all
     departments and agencies maintain a corrective action program that can generate
     data for, and track assignments from, the NEP CAP for unclassified issues.
     Appendix C provides a diagram of the CAP process.

     The full implementation of a CAP system involves the coordination of activities
     between the HSC, ESC, NEP, and participating departments and agencies. The
     HSC maintains a policy coordination and advisory role that functions across all
     levels of the federal government, and answers directly to the President. The HSC
     also maintains responsibility for corrective action issues and communicating the
     overall direction of CAP to department and agency top officials. The ESC
     coordinates departmental and agency roles and responsibilities, and reports to the


     DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                          Page 7
HSC’s Exercise and Evaluation Sub-IPC. The NEP is responsible for
incorporating HSEEP guidelines into TOPOFF exercise design and evaluation.

The TOPOFF 4 AAR, which has not been approved or released by DHS, concludes
that NEP has established a process for tracking and monitoring the implementation
of corrective actions. In June 2008, the ESC met to prioritize corrective actions
identified in the March 2008 AAR Implementation Plan. An NEP official informed
that in September 2008, the Sub-IPC reviewed the corrective actions identified in
the AAR Implementation Plan and transmitted them to the HSC Domestic
Readiness Group for approval. Subsequently, the HSC-approved corrective actions
were assigned to individual departments and agencies for remediation. The official
added that NED entered the corrective actions into the CAP system and initiated
training to ensure that action officers can enter information on the status of assigned
tasks. However, as of March 2009, the CAP system does not include corrective
action updates and has not produced required progress reports to validate
completion of any corrective actions.

In an August 2007 memorandum to cabinet and agency heads, the Secretary of
DHS emphasized the NEP Implementation Plan requirement for adherence to a
disciplined CAP that outlines the process by which shortfalls are identified, tasked
for action, and tracked to resolution. NEP managers said that generating full
support and participation for the CAP system from department and agency
officials is a significant challenge. The support and active participation of the
Sub-IPC and HSC Deputies Committee are also critical to ensuring that corrective
actions are assigned, tracked, and validated.


Recommendations
         We recommend that the Administrator, Federal Emergency Management
         Agency:

         Recommendation #1: Provide the interagency Policy Coordinating
         Committees and the HSC with detailed information regarding challenges
         faced and actions that need to occur for complete implementation of the
         CAP system.

         Recommendation #2: Request that the Sub-IPC and the HSC use the
         information provided to clarify and communicate to federal agencies and
         departments their responsibilities for corrective action assignments,
         tracking, and validation.

         Recommendation #3: Revise the current NEP Implementation Plan by
         including specific program control objectives and procedures that will
         provide management reasonable assurance on CAP implementation.


DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                      Page 8

     Management Comments and OIG Analysis
              FEMA Response to Recommendation #1: FEMA agreed with our
              recommendation and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.

              FEMA Response to Recommendation #2: FEMA agreed with our
              recommendation and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.

              FEMA Response to Recommendation #3: FEMA agreed with our
              recommendation and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.


Recurring Themes Identified in Previous Exercises and Real-World
Events Have Not Been Resolved
     According to the April 2007, National Exercise Program Implementation Plan,

              “The perennial lament of exercise planners and participants is
              exercise fatigue, when multiple exercises require recurring
              application of a department or agency’s limited time and
              resources. This fatigue factor is exacerbated by frustrations
              that occur when exercise activities do not lead to appreciable
              improvements in policies, plans, or performance.”

     The TOPOFF 4 AAR concluded that the exercise identified (1) where the
     Nation’s preparedness has improved, and (2) areas that need further improvement.
     The areas that need further improvement include recurring themes that have been
     identified in previous exercises and real-world events, and several new areas.



     DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                           Page 9

The Homeland Security Advisory System (HSAS) provides an example of a
policy issue repeatedly identified during TOPOFF exercises that has not been
resolved. The HSAS was designed to guide protective measures when specific
threat information from a particular sector or geographic region is received. It
combines threat information with vulnerability assessments, and provides
pertinent information to public safety officials and the public. Following
TOPOFF 2, the AAR reported uncertainty regarding protective actions to be taken
for each HSAS threat level. Specifically, the purpose, definitions, and
consequences of the HSAS threat levels were not clear. In addition, coordination
of actions taken by other agencies or jurisdictions under HSAS was also unclear.
Participants at all levels of government, as well as international participants, have
raised questions about the meaning and implications of HSAS level changes.

In the aftermath of TOPOFF 3, the AAR concluded that the HSAS system was
still not understood or systematically used by exercise participants. However, no
corrective actions were included in the AAR, since this was not required by the
exercise evaluation and improvement process. After TOPOFF 4, the AAR
concluded again that the purpose, definitions, and consequences of HSAS threat
levels remain unclear.

Regarding the reoccurrence of HSAS issues in successive TOPOFF exercises,
NEP program managers said that actions to address HSAS issues required
correcting unresolved policy issues beyond the scope and authority of their office.
Following TOPOFF 4, NEP officials reported that the HSC had prioritized HSAS
issues for immediate attention. However, a decision has not been made whether
actions to address HSAS would be included and tracked under the CAP, or
managed and monitored directly by the HSC. The HSC, through its Domestic
Readiness Group and Sub-IPC, can prioritize and assign action under CAP.


Recommendations
         We recommend that the Administrator, Federal Emergency Management
         Agency:

         Recommendation #4: Request that the HSC clarify and document their
         determination whether issues prioritized by the Sub-IPC for immediate
         action after TOPOFF exercises will be included and tracked under the CAP.




DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                     Page 10

     Management Comments and OIG Analysis
              FEMA Response to Recommendation #4: FEMA agreed with our
              recommendation and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.


Participation and Support in TOPOFF Planning and Implementation
Needs To Be Increased
     The participation of top officials responsible for response and consequence
     management is critical to the success of TOPOFF exercises. Based on the April
     2007 NEP Implementation Plan, all departments and agencies must budget for
     support to NEP Tier I exercises and be prepared to provide Principal- or Deputy-
     level support. However, FEMA officials said that not all federal departments and
     agencies have (1) established their participation on committees and working
     groups, (2) accounted for the costs associated with participation, and
     (3) committed sufficient resources for TOPOFF exercises.

     For private sector participation, the TOPOFF 4 AAR concludes that exercises
     offer the private sector an opportunity to collaborate with the government and test
     plans for disaster response and recovery. However, planners said that to create
     strong linkages, the private sector needed to be engaged earlier in the planning
     cycle with their federal agency counterparts.

              Federal Participation

              Recognizing that top officials rarely participated in national-level
              preparedness exercises, Congress required that top officials and key staff
              participate fully in exercise planning, implementation, and after-action
              exercise activities. At the federal level, NEP engaged more than 40
              departments, agencies, and offices in its TOPOFF 4 interagency planning
              process. However, all agencies did not commit the required personnel or
              resources to accomplish TOPOFF exercise activities, which affected the
              extent of their participation in the planning, implementing, and evaluating
              processes.

              In August 2007, 10 weeks prior to the start of TOPOFF 4, Secretary
              Chertoff distributed a memorandum for cabinet and agency heads
              requesting those who had not assigned an executive to the ESC to do so.
              However, by the conclusion of the TOPOFF 4 exercise in October 2007,
              not all federal departments and agencies had designated representatives to
     DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                          Page 11
         the ESC or made budgetary decisions to ensure the availability of
         resources to plan and participate in the exercise. NEP officials said that at
         the conclusion of TOPOFF 4, departmental and agency participation was
         not at the level expected for robust interagency planning and participation.
         As a result, many of the TOPOFF 4 planning and scenario design
         activities did not have a broad representation of exercise planners.

         Although TOPOFF objectives are expected to reflect U.S. Government-
         wide priorities, some exercise objects were not emphasized because of the
         need for more inclusive participation in exercise plan, design, or after-
         action analysis. In the exercise after-action discussions, ESC members
         said that the need for information and participation by departments and
         agencies has created a perception that the TOPOFF exercise program is
         overly focused on DHS objectives and is of minimal value.

         NEP managers described securing sufficient federal support for TOPOFF
         as a primary challenge to establishing a national exercise program. The
         TOPOFF 4 AAR suggests that HSEEP policy and guidance be amended to
         emphasize the requirements for TOPOFF participation at the highest
         levels. Achieving early and active engagement of all concerned parties
         will help ensure that TOPOFF exercises reflect federal government-wide,
         state, territorial, local, and private sector priorities. FEMA will need the
         support and assistance of federal interagency committees and the HSC to
         achieve this goal.

         Participation at the State, Territorial, Local, and Private Sector
         Levels

         State, territorial, and local officials responsible for TOPOFF 4 planning
         and implementation commented that they:

              �	 Were not engaged early enough in the exercise planning process;
              �	 Were not given clear benchmarks and guidelines for participation;
                 and
              �	 Would benefit from more support and mentoring from state-level
                 counterparts from previous TOPOFF exercises, which was a part
                 of the TOPOFF 3 preparation process.

         NED supported and managed the needs of the private sector working
         group for the TOPOFF 3 exercise. This responsibility was not clearly
         delineated for TOPOFF 4. According to a FEMA official, the NEP did
         not plan or budget for the necessary recruitment and engagement efforts of
         the private sector in TOPOFF 4.

         TOPOFF 4 private sector participants included a broad range of
         representatives from the critical infrastructure/key resources sector, large

DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                     Page 12
         corporations, nongovernmental and service organizations, and others.
         Their participation in TOPOFF helped to identify areas where they could
         contribute during or after an actual terrorism event or a major natural
         disaster, and how national-level policies could be integrated into their
         operations.

         Following TOPOFF 4, private sector participants provided the following
         assessments:

              �	 Exercise planners needed to distinguish the levels of participation
                 of each type of private sector organization and clarify the
                 objectives and requirements of participation for each
                 organizational type; and
              �	 Private sector participants needed to be recruited earlier in the
                 exercise design and plan cycle.

         During TOPOFF 4, there was confusion within the private sector about
         specific roles and defined expectations during the exercise. In the absence
         of a clear delineation of duties and specific roles, private sector entities
         developed expectations that did not coincide with those of the federal
         government.


Recommendations
         We recommend that the Administrator, Federal Emergency Management
         Agency:

         Recommendation #5: Task FEMA’s Private Sector Office to co-chair a
         working group with DHS private sector entities to identify the requirements
         for private sector TOPOFF participation, and establish a plan to support
         their participation.

         Recommendation #6: Develop and implement a plan to secure the full
         participation and required resources of federal departments and agencies,
         and state, local, and territorial entities to design, plan, and conduct the
         TOPOFF exercise program.

         Recommendation #7: Amend National Exercise Program guidance to
         ensure that it addresses and supports the appropriate level of federal
         departments and agencies, and state, local, and territorial participation
         expected in the TOPOFF exercise program.




DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                     Page 13
     Management Comments and OIG Analysis
              FEMA Response to Recommendation #5: FEMA agreed with our
              recommendation, and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.

              FEMA Response to Recommendation #6: FEMA agreed with our
              recommendation, and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.

              FEMA Response to Recommendation #7: FEMA agreed with our
              recommendation, and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.


Evaluator Selection and Training Needs Improvements
     The TOPOFF 4 Evaluator Handbook outlines evaluator responsibilities that
     include recording observations of player actions and managing data collection at
     all exercise sites. Data collected by evaluators during the TOPOFF 4 exercise
     supported the post-exercise reconstruction and analysis process, the development
     of observations, lessons learned, and the recommendations contained in the
     TOPOFF 4 AAR. More than 650 evaluators participated in the TOPOFF 4
     exercise.

     The TOPOFF 4 Evaluator Handbook requires evaluators to be familiar with the
     roles and responsibilities of the players they observe. NED relied on departments
     and agencies to identify and assign individuals with appropriate agency-specific
     knowledge to perform data collection at key locations during the exercise.
     However, some departments, agencies, and DHS components did not assign
     evaluators to support the evaluation methodology until just before the full-scale
     exercise. Therefore, all evaluators did not complete the NED evaluator training,
     or familiarize themselves with the exercise plan, scenario, missions, policies, and
     procedures specific to their assigned location.

     DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                          Page 14
TOPOFF 4 evaluators were offered a training session conducted by NED in
advance of the exercise. Agency personnel selected as evaluators were expected to:

     �	 Review the exercise plan and scenario, the master scenario events list,
        evaluation plan, and control staff instructions;
     �	 Complete evaluator training requirements;
     �	 Familiarize themselves with the missions, plans, policies, procedures, and
        processes applicable to their assigned location;
     �	 Familiarize themselves with data collection forms and exercise evaluation
        guides for their assigned location; and
     �	 Attend the controller/evaluator briefings at their assigned location.

Some of the evaluators said that they were selected by their departments and
agencies to serve as evaluators shortly before the start of the TOPOFF 4 exercise.
Therefore, they were unable to complete the full training program conducted by
NED. They participated in an abbreviated training session offered the day before
the exercise started, and did not have the opportunity to review the master
scenario events list, evaluation plan, or control staff instructions before assuming
their evaluator duties. This resulted in reduced assurance that evaluators were
able to obtain the necessary knowledge, skills, and abilities to record required data
during the exercise.

Evaluators without sufficient knowledge of the exercise plan, scenario, agency
plans, policies, and procedures were not as effective in performing their assigned
duties during the exercise. For example, evaluators collecting data at the Portland
Joint Information Center and the Joint Federal Office said that they did not have a
good grasp of the evaluation objectives for their assigned locations, but were
making their best effort to collect data and record what they observed.

The TOPOFF 4 AAR Annex 1 includes comments and recommendations for
improvements from the exercise working groups. The working groups
acknowledged in their comments that the complexity and specific requirements of
TOPOFF created a need for more extensive evaluator training tailored to the
requirements of each exercise venue. They also proposed that evaluators be
identified earlier in the exercise planning process, and that the training schedule
be integrated into venue and interagency group meetings.


Recommendations
         We recommend that the Administrator, Federal Emergency Management
         Agency:

         Recommendation #8: In response to TOPOFF 4 AAR Annex 1
         recommendations, develop and implement a plan to identify, train, and
DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                     Page 15
              support department and agency officials and staff who will control,
              evaluate, or participate in TOPOFF exercise programs.


     Management Comments and OIG Analysis
              FEMA Response to Recommendation #8: FEMA agreed with our
              recommendation, and will provide a detailed corrective action plan for
              implementation in their 90-day letter following the issuance of our final
              report.

              OIG Analysis: This recommendation is resolved and open pending our
              receipt of FEMA’s 90-day letter.


Dissemination of TOPOFF AARs, Lessons Learned, and Best Practices
     According to HSEEP guidelines, the overarching TOPOFF exercise objectives are
     (1) the identification and dissemination of lessons learned, and (2) the promotion
     of best practices to the national community of first responders and emergency
     managers. In addition, HSPD-8: Terrorism Preparedness mandates that DHS
     “develop and maintain a system to collect, analyze, and disseminate lessons
     learned, best practices, and information from exercises, training events, research,
     and other sources.” DHS has not yet developed an effective process to
     disseminate TOPOFF AARs, lessons learned, and best practices to a broad
     national audience.

              Distribution of TOPOFF AARs

              For the TOPOFF 4 exercises ending in November 2007, NEP finalized
              and submitted the AAR to the HSC Sub-IPC for review in March 2008. In
              June 2008, the report was transmitted to FEMA officials for a security
              review and classification. In November 2008, FEMA transmitted the
              AAR to DHS headquarters for final approval and distribution. However,
              as of March 2009, DHS had not approved the TOPOFF 4 AAR for release
              to participating agencies and other interested parties.

              An NEP official said that the current HSEEP timeline requires an AAR to
              be produced 60 days after the exercise. Based on feedback received from
              federal, state, and local officials, the 60-day requirement will be changed
              to 90 days. Also, taking into account the additional interagency
              coordination, the NEP official recommended the following timeframe:
              (1) draft interagency report is created within 120 days after the exercise;
              (2) FEMA approves the report within 150 days after the exercise; and
              (3) DHS approves the report within 180 days after the exercise.


     DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                          Page 16
         To date, TOPOFF AARs have had restricted distribution to a limited
         number of federal, state, territorial, and local departments and agencies on
         a loan basis because DHS considers that the reports may contain sensitive
         information. All TOPOFF AARs have been designated For Official Use
         Only (FOUO), which precludes their dissemination to a broad national
         audience.

         Distribution of TOPOFF Lessons Learned

         The Lessons Learned Information Sharing (LLIS) website is DHS’ online
         repository for information dedicated to the emergency response and
         homeland security communities. NEP managers describe the LLIS
         website as the primary method to disseminate TOPOFF exercise lessons
         learned and best practices.

         The TOPOFF 4 exercise plan did not encompass specific activities or a
         budget to disseminate lessons learned immediately following the exercise.
         However, to bring the results of the exercise to a wider national audience,
         senior FEMA officials directed the NED to conduct a 1-day National
         After-Action Conference for state homeland security advisors and
         emergency management directors. NED invited officials from 56 states
         and territories to attend the March 2007 event in Oklahoma City,
         Oklahoma. The conference goals were to report on the TOPOFF 4
         exercise, present lessons learned, and describe the new CAP process. The
         TOPOFF 4 National After-Action Conference attracted 142 participants
         from federal, state, and territorial agencies; 47 attended in person and 95
         participated via a webcast of the conference. Conference participants
         represented 26 states and territories.

         The conference included a 30-minute presentation and a FOUO document
         that described lessons learned from the TOPOFF 4 exercise. NED
         officials said that while participation was less than envisioned, the
         conference achieved its goals, and was an effective way to disseminate
         TOPOFF lessons learned to a national audience of state homeland security
         officials.

         According to the GAO Standards for Internal Control in the Federal
         Government, information should be communicated to management and
         others who need it within a timeframe that enables them to carry out their
         responsibilities. NED managers said that the process to disseminate
         TOPOFF AARs and lessons learned is evolving, and progress will be
         made as HSEEP-directed exercise evaluation and improvement planning
         becomes more standardized under the NEP and CAP.




DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                     Page 17
Recommendations
         We recommend that the Administrator, Federal Emergency Management
         Agency:

         Recommendation #9: With assistance from DHS senior officials and
         offices, develop and implement a process and timeframe to distribute final
         TOPOFF AARs.

         Recommendation #10: To communicate information to a national
         audience of first responders and emergency management officials, develop
         and implement a process and timeframe to populate LLIS.gov with
         TOPOFF exercise lessons learned and best practices.


Management Comments and OIG Analysis
         FEMA Response to Recommendation #9: FEMA agreed with our
         recommendation, and will provide a detailed corrective action plan for
         implementation in their 90-day letter following the issuance of our final
         report.

         OIG Analysis: This recommendation is resolved and open pending our
         receipt of FEMA’s 90-day letter.

         FEMA Response to Recommendation #10: FEMA agreed with our
         recommendation, and will provide a detailed corrective action plan for
         implementation in their 90-day letter following the issuance of our final
         report. FEMA noted in their response memorandum that at the conclusion
         of TOPOFF 4, DHS/FEMA produced and disseminated three Quick Look
         reports for participating departments and agencies and the response
         community, as well as a public version.

         OIG Analysis: This recommendation is resolved and open pending our
         receipt of FEMA’s 90-day letter.




DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                     Page 18

Appendix A
Purpose, Scope, and Methodology

                     Our objective was to determine whether the DHS is achieving its goals to
                     identify, distribute, and address lessons learned and corrective needs that
                     surfaced during the biennial national TOPOFF terrorism preparedness
                     exercises. We examined these processes in relation to the TOPOFF 3 and
                     TOPOFF 4 exercises.

                     We conducted interviews with DHS/FEMA National Preparedness
                     Directorate staff who manage the TOPOFF exercise series. We interviewed
                     other DHS officials, managers, and staff; personnel from other federal
                     departments and agencies; and state, local, and private sector exercise
                     participants who played an instrumental role in TOPOFF exercise design,
                     planning, and evaluation. We collected, reviewed, and analyzed documents
                     related to exercise planning, training, evaluation, after-action process, and
                     the corrective action program.

                     We observed and collected data during the TOPOFF 4 exercise in
                     Phoenix, Arizona, and Portland, Oregon; and at the exercise master
                     control cell established in Northern Virginia. We observed the TOPOFF 4
                     exercise after-action briefings (hot washes) conducted in Phoenix and
                     Portland, and in Virginia; the December 2007 Long-term Recovery Table
                     Top Exercise; the January 2008 After-Action Conference; and the April
                     2008 National After-Action Conference in Oklahoma City, Oklahoma.

                     We conducted our review between October 2007 and August 2008 under
                     the authority of the Inspector General Act of 1978, as amended, and
                     according to the Quality Standards for Inspections issued by the
                     President’s Council on Integrity and Efficiency.




            DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                                 Page 19

Appendix B
Management Response to the Draft Report




            DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                                 Page 20

Appendix B
Management Response to the Draft Report




            DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                                 Page 21

Appendix C
The Corrective Action Program Process




              Step 1                                Step 2                               Step 3                                Step 4                            Step 5
                                               After-Action
                                               After-Action                                                                                                  Solution
       Event Evaluation                                                         Issue Prioritization                  Issue Assignment
                                               Conference                                                                                                  Development
     Evaluators observe and               Exercise Participants                NEP ESC prioritizes CAs
                                                                                                                     Affected PCC formally              Assigned D/A develops
     analyze exercise, and                review DRAFT AAR and                 and sends to DRG for
                                                                                                                     assigns priority CAs to            Implementation Plan for
     develop preliminary                  develop proposed CAs to              finalization; DRG sends
                                                                                                                     appropriate D/A via                assigned CA
     recommendations to                   address preliminary                  CAs to affected PCC for
                                                                                                                     ExecSec channels
     address observed issues              recommendations                      formal assignment
                  Agent/Action

                   E+15                                   E+30                               E+60                                  E+90                               E+130
                    Output
         DRAFT AAR with                    Final AAR/IP with specific                                                                                     Implementation Plan
                                                                                                                     Formal notification of CA
            preliminary                    CAs, action officers, start            List of prioritized
                                                                                          prioritized CAs                                                 with defined timelines
                                                                                                                         assignments to
         recommendations                  dates and completion dates                                                                                         and milestones
                                                                                                                        appropriate D/As




                                 Step 6                               Step 7                                Step 8                             Step 9
                                                                  Solution                            Solution                           Solution
                          Solution Review
                                                               Implementation                        Validation                          Reporting
                                                           Assigned D/A                        Assigned D/A validates              NEP ESC complies and
                        Affected PCC reviews
                                                           implements CAs in                   implemented CA                      distributes repots to
                        implementation plan and
                                                           accordance with proposed            through metrics defined             D/As, PCCs, and HSC
                        provides feedback
                                                           timelines and milestones            in implementati
                                                                                                  implementation plan              Deputies Committee

                                                                                                                                                   Monthly (D/As)
                                     E+160                                E+170                                Ongoing                             Quarterly (PCCs)
                                                                                                                                                   Biannually (Deputies)

                          Final Implementation                 Progress toward CA                   E.g., Exercise                    CA implementation
                          Plan reflecting PCC                implementation tracked in             objectives testing                  summarized and
                                 feedback                          CAP System                     and validating CAs                       reported
                                                                                                                                                                                   Key Acronyms
                                                                                                                                                                After-Action Report (AAR)
                                                                                                                                                                Improvement Plan (IP)
                                                                                                                                                                Corrective Action (CA)
                                                                                                                                                                Department/Agency (D/A)
                                                                                                                                                                Homeland Security Council (HSC)
                                                                                                                                                                Executive Secretary (Exec Sec)
                                                                                                                                                                DRG (Domestic Readiness Group)




                       DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                                                                           Page 22

Appendix D
Major Contributors to This Report

                     Deborah Outten-Mills, Chief Inspector, Department of Homeland
                     Security, Office of Inspections

                     Jim O’Keefe, Senior Inspector, Department of Homeland Security, Office
                     of Inspections

                     Lawrence Anderson, Inspector, Department of Homeland Security, Office
                     of Inspections

                     Jessica Barnes, Inspector, Department of Homeland Security, Office of
                     Inspections




            DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises

                                                 Page 23
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Acting Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Administrator, Federal Emergency Management Administration
                      Audit Liaison, Federal Emergency Management Administration

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




             DHS Efforts To Address Lessons Learned in the Aftermath of Top Officials Exercises 


                                                  Page 24

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
